Nos. 19-508 & 19-825
IN THE

Supreme Court of the United States
AMG CAPITAL MANAGEMENT, LLC, ET AL.,
Petitioners,
v.
FEDERAL TRADE COMMISSION,
Respondent.
FEDERAL TRADE COMMISSION,
Petitioner,
v.
CREDIT BUREAU CENTER, LLC, ET AL.,
Respondents.

On Writs of Certiorari to the
United States Courts of Appeals
for the Ninth and Seventh Circuits

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rules 29.3 and 29.5(b), I, Neal Kumar Katyal, a
member of the Bar of this Court, hereby certify that on September 17, 2020, a copy
of the foregoing was served by e-mail and United States mail, postage prepaid to the
following:
Alden F. Abbott
Michael Bergman
Federal Trade Commission
600 Pennsylvania Ave, NW
Washington, DC 20580
(202) 326-2505
1

aabbott@ftc.gov
mbergman@ftc.gov
Counsel for Federal Trade Commission in Nos. 19-508 & 19-825

Jeffrey A. Lamken
MoloLamken LLP
The Watergate, Suite 660
600 New Hampshire Ave., N.W.
Washington, DC 20037
(202) 556-2010
jlamken@mololamken.com
Counsel for AMG Capital Management, LLC et al. in No. 19-508

Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Room 5616
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

I further certify that all parties required to be served have been served.

Date: September 17, 2020

/s/ Neal Kumar Katyal
Neal Kumar Katyal

2

